OFFICE OF INSPECTOR GENERAL



AUDIT OF THE AFRICAN
DEVELOPMENT FOUNDATION/
GHANA PROJECT ACTIVITIES
AUDIT REPORT NO. 7-ADF-08-007-P 

SEPTEMBER 17, 2008 





DAKAR, SENEGAL 

September 17, 2008

Lloyd Pierson
President
African Development Foundation
1400 I Street, NW
Washington, DC 20005-2248

SUBJECT: Audit of the African Development Foundation/Ghana Project Activities
         (Report No. 7-ADF-08-007-P)

This letter transmits our final report on the subject audit. In finalizing the report, we carefully 

considered your comments on the draft report and we have included ADF’s comments in

their entirely in appendix II of this report.


The report includes 18 recommendations for your action. Based on your comments and the 

documentation provided, we consider management decisions have been reached on all

recommendations except for recommendation nos. 5, 9 and 17. A management decision

for recommendations nos. 5, 9 and 17 can be recorded when ADF has developed a firm 

plan of action, with target dates, for implementing the recommendations. Determination of

final action for the report recommendations will be made by the Foundation’s audit 

committee and we ask that we be notified upon completion of the proposed corrective

actions. 


I appreciate the cooperation and courtesy extended to my staff throughout the audit. 


Sincerely, 





Dennis Bryant /s/

Regional Inspector General/Dakar 



Cc: Board of Directors, African Development Foundation 

CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


     Ineligible and Unsupported Costs
     Charged to ADF .......................................................................................................... 4 


     Final Certification of Indirect Cost 

     Rates Not Completed.................................................................................................. 6 


     Audits Not in Compliance
     with ADF Policy ........................................................................................................... 8 


     Lack of Monitoring and Evaluation 

     System ..................................................................................................................... 10 


     Progress on Achieving Objectives Not
     Reported and Verified ............................................................................................... 12 


     Indications of Fraud and Misuse of 

     Funds by ADF/Ghana Grantees ............................................................................... 14 


     Several Grantees Suffered from Weak
     Financial Management Practices .............................................................................. 17 


     Grantees’ Noncompliance with 

     Agreement Terms ..................................................................................................... 18 


Evaluation of Management Comments ....................................................................... 21 


Appendix I – Scope and Methodology ........................................................................ 24 


Appendix II – Management Comments ....................................................................... 26 


Appendix III – ADF/Ghana Questioned Costs ............................................................ 40

SUMMARY OF RESULTS 

The African Development Foundation (ADF) is a U.S. Government corporation
established by Congress in 1980 with a mandate to promote the participation of Africans
in the economic and social development of their countries. The principal aim of ADF's
grants is to enable the empowerment of the poor in Africa. ADF does not develop
projects itself. Rather, ADF provides financial support to African enterprises and
community-based organizations through grants of $250,000 or less that generate
income and employment. ADF/Ghana was comprised of a regional office, a country
representative office and a partner organization. (See page 2.)

The Regional Inspector General/Dakar performed this audit to determine whether
ADF/Ghana implemented its activities in accordance with ADF policies and selected
U.S. Government regulations. (See page 3.)

The USAID Office of Inspector General (OIG) auditors found that in many instances
ADF/Ghana had not implemented its activities in accordance with ADF policies and U.S.
government regulations. (See page 4.) Specifically, ADF/Ghana charged ADF for
ineligible and unsupported questioned costs of $1,112,947, 16 percent of total
disbursements during the four year period April 2004 to March 2008, (see appendix III
page 40) and did not submit final certificates of indirect costs. (See page 6.) Financial
audits conducted by a local accounting firm did not comply with appropriate standards
and the audit firm was not on the OIG list of eligible firms. (See page 8.) ADF/Ghana did
not establish a monitoring and evaluation system (see page 10) and did not verify the
accuracy and completeness of reported information as required by ADF policy. (See
page 12.)

Also, ADF did not ensure that grantees used ADF funds in accordance with the terms of
their agreements which led to the misuse of funds and indications of fraud. (See page
14.) Finally, ADF did not ensure that its grantees established financial management
systems (see page 17) and contributed to the ADF community development trust fund.
(See page 18.)

The report contains 18 recommendations that will assist ADF/Ghana in improving its
compliance with ADF policies and U.S. regulations. We believe that ADF’s comments
and planned actions are responsive to the report recommendations. We consider that
management decisions have been reached on all recommendations except for
recommendation nos. 5, 9 and 17. Our evaluation of management comments is provided
on page 21. ADF’s comments in their entirety are included in appendix II.




                                                                                       1
BACKGROUND

The African Development Foundation (ADF) is a U.S. Government corporation
established by Congress in 1980 with a mandate to promote the participation of Africans
in the economic and social development of their countries. The principal aim of ADF's
grants is to enable the empowerment of the poor in Africa. ADF’s strategic goals and
objectives are threefold:

•	 Invest in businesses and social enterprises that create jobs, generate income, and
   improve the life of the poor.
•	 Expand institutional and financial capacities that support businesses and social
   enterprise growth.
•	 Broaden ADF’s resource base and provide efficient and effective services.

ADF does not implement projects itself. Rather, ADF delivers direct financial support to
African enterprises and community-based organizations, by providing grants of $250,000
or less that generate income and employment. Such grants are designed to increase
the flow of investment capital to the poor and to:

•	 Finance sustainable poverty alleviating initiatives that are conceived, designed, and
   implemented by Africans and which engender opportunities for community
   development.
•	 Stimulate and expand the participation of Africa's poor in the development of their
   countries.
•	 Build sustainable African institutions that foster grassroots development.

In November 1999, Public Law 106-113 amended the responsibilities of the
USAID/Office of Inspector General (OIG) under Section 8A (a) of the OIG Act of 1978, to
include audit responsibility for ADF.

ADF, with headquarters in Washington, DC, currently has active programs in 18 African
countries including Ghana. ADF funds its overseas offices through contracts with its
country representatives and cooperative agreements signed with partner organizations.

The ADF/Ghana program, established in 1984, managed a portfolio of 39 investment
projects as of April 2008, (15 organizational assistance grants and 24 development
assistance projects) across a range of industries and economic sectors and focused on
export-oriented enterprise development. ADF field activities are managed and monitored by
its overseas offices. During the period covered by the audit (from April 2004 to March
2008), ADF/Ghana was comprised of the following entities:

•	 A partner organization, which has had five cooperative agreements with ADF since
   2001 and was responsible for providing technical assistance, monitoring ADF/Ghana
   projects and developing new projects. The partner had seven employees during the
   audit period, including 3 professional staff plus 11 contractors.

•	 The ADF/Ghana country representative office has been under contract with ADF since
   2003. The country representative office was responsible for guiding and supporting



                                                                                           2
   ADF’s work in Ghana, ensuring proper implementation of ADF-funded activities, and
   coordinating with other donors and the Government of Ghana. The country
   representative office had seven employees during the audit period including four
   professional staff.

•	 A regional office headed by an ADF vice president, chief executive officer, who acted
   as the regional program coordinator and was assisted by U.S. regional investment
   advisors. The regional office was established in February 2006 and discontinued in
   March 2008. The regional office had complete and full responsibility, authority and
   accountability for providing and ensuring judicious oversight and management of all
   ADF enterprise investments, country programs and operations, in Guinea, Ghana
   and Nigeria. The regional office had 17 people including 4 regional investment
   advisors.

During the period April 1, 2004 to March 31, 2008, ADF obligated $7.5 million and
disbursed $7.1 million to ADF/Ghana in support of its activities.

AUDIT OBJECTIVE
This audit conducted by the Regional Inspector General/Dakar (RIG/Dakar) will support
the Office of Inspector General in responding to Congressional interest concerning
ADF’s operations in Ghana. This audit, focusing on compliance with ADF policies and
selected U.S. Government regulations, was designed to answer the following question:

•	 Did ADF/Ghana implement its activities in accordance with ADF policies and
   selected U.S. Government regulations?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                      3
AUDIT FINDINGS
In many instances, activities of ADF/Ghana were not implemented in accordance with
ADF policies. In addition, several policies of ADF and selected U.S. Government
regulations were not adhered to by the partner organization, the country representative
office and the grantees. The following sections of this audit report discuss the lack of
compliance with ADF policies and associated questioned costs of $1,112,947, and
identify opportunities to improve program oversight and accountability.

ADF/Ghana had three tiers of management that included the partner organization, the
country representative office and the regional coordinating office. The first five findings
presented below concern ADF/Ghana’s lack of compliance in fulfilling its management
role. The last three findings, starting on page 14, concern ADF/Ghana’s grantees.

Ineligible and Unsupported Costs
Charged to ADF

    Summary: ADF/Ghana’s management did not comply with ADF policies and selected
    U.S. Government regulations. Based on a review of expenditure vouchers and
    financial records, the audit team found that several expenditures were not allowable or
    were unsupported. These instances of noncompliance were due to a weak control
    environment and a lack of oversight by the ADF/Ghana regional office and
    ADF/Washington. As a result, questioned costs totaling $329,936 were charged to
    ADF. This type of situation can also create vulnerabilities that potentially lead to fraud,
    waste and abuse.

This section discusses the noncompliance of the ADF/Ghana management, mainly the
partner organization, with U.S. Government regulations and ADF guidance. The
partner’s agreements state that ADF shall require the recipient to refund any amount that
the recipient did not spend in accordance with the terms of the agreement. According to
the terms of the agreements, actual expenditures for any budget line item cannot exceed
budgeted expenditures by more than 15 percent without the prior approval of
ADF/Washington. Also, the Office of Management and Budget Circular A-122 provides
principles to be applied in establishing the allowability of certain costs. Through a review
of expenditure vouchers1 and supporting documentation, the audit team identified
$202,100 in ineligible costs and $127,836 in unsupported questioned costs as shown in
appendix III.

In addition, the audit team identified compliance deficiencies that could not be quantified.
For example, fuel costs charged for 87 of 97 trips to Kumasi and Sunyani regions from
November 2006 to March 2008 could not be justified in view of the distance between the
partner’s office in Accra, Ghana, and the grantee locations. A total of 32,759 kilometers
were reportedly driven, while 23,020 kilometers should have been driven based on the

1 The OIG auditors reviewed all expenditure vouchers of the partner organization for the period
April 2004 to March 2008. However, the auditors did not investigate all costs to determine their
allowability because of time constraints and materiality.


                                                                                              4
recorded distances computed by the USAID Office of Inspector General (OIG) auditors
who traveled to the same locations. We found that some capital assets funded by ADF
were not used for program-related purposes and hence program funds were wasted. For
example, ADF/Ghana purchased two satellite dishes for $125,628 in 2006 that were
never correctly installed or used.

A weak control environment and a lack oversight by the ADF/Ghana regional office and
ADF/Washington were responsible for the above mentioned deficiencies and the
resulting questioned costs. Since 2001, ADF/Washington renewed its cooperative
agreement with the partner organization without following a competitive bidding process
as required by U.S. regulations. The audit found that the partner organization’s and the
country representative’s staff members were not completing timesheets and no payroll
records existed to ensure that staff members were paid based on attendance. There was
no adequate accounting system to track expenses by budget line and to produce trend
analyses and no procedures were in place to verify and validate expenditures. Almost 40
percent of travel advances were not liquidated by actual travel reports. The vehicle logs
were not consistently completed and specific locations visited were not listed and the log
book was not signed by the user. No bank reconciliations were performed on the partner
organization’s own business bank account, and even though bank reconciliations were
done for the ADF account, they were not reviewed or approved by the partner
organization’s director. Also, no statements were available on the provident funds2 for
the last four years. There were no minutes of the board meetings even though expenses
were incurred for those meetings.

Audits of the partner organization were performed, however, the audits failed to report
internal control and compliance deficiencies. (See finding on page 8.) Also, an audit by a
local accounting firm of the country representative office was conducted for the period
October 2005 to December 2006. The local accounting firm found that several
expenditures were not supported by payment vouchers, no payroll taxes were paid
(contrary to ADF policy) and the vehicle log book was not reviewed and approved by a
responsible officer.

As a result of a weak control environment, $329,936 of ADF funds may have been
misspent and additional funds are vulnerable to fraud, waste and abuse.

   Recommendation No. 1: We recommend that the African Development
   Foundation determine the allowability of $202,100 in ineligible questioned costs
   and $127,836 in unsupported questioned costs and recover from the partner
   organization the amounts determined to be unallowable.

   Recommendation No. 2: We recommend that the African Development Foundation
   establish a plan to correct the internal control and compliance deficiencies
   discussed in the report. This will include at a minimum the use of monthly
   timesheets, completion and review of vehicle log books, approval of bank
   reconciliations, documentation of board of directors’ meetings and liquidation of
   travel advances.



2 A provident fund pays benefits to company employees who are fund members upon the
termination of their employment.


                                                                                        5
   Recommendation No. 3: We recommend that the African Development Foundation
   issue a request for proposals (a) to conduct a financial audit of its Ghana country
   representative office for the calendar year 2007 to assess whether ADF funds were
   used in compliance with ADF policies, and (b) to select a partner based on a
   competitive process to comply with U.S. regulations.

   Recommendation No. 4: We recommend that the African Development
   Foundation take appropriate measures to sell or replace unused assets.

Final Certification of Indirect Cost
Rates Not Completed

 Summary: According to ADF policy, ADF/Ghana’s partner organization, should have
 an annual audit of its indirect cost rates and submit a final certification of the indirect
 cost rates within 9 months of the end of its fiscal year. However, the audit found that
 the partner organization did not conduct an audit of its indirect cost rates and did not
 submit a certificate of final indirect cost rates. This noncompliance with ADF guidance
 was due to a lack of oversight by the ADF/Ghana regional program coordinator and
 ADF/Washington. As a result, the partner organization overcharged ADF $182,866.

The Office of Management and Budget (OMB) Circular A-122 and Contract Information
Bulletin (CIB) 97-9 provide specific guidance on the computation and determination of
final indirect cost rates for non-profit organizations and non-U.S. nongovernmental
organizations, respectively. As per ADF guidance, the partner organization is required to
follow the standards prescribed by OMB Circular A-122 and the agreement will be in the
form of a Negotiated Indirect Cost Rate Agreement (NICRA). ADF guidance also
required an audit of indirect costs and stated that the purpose of the audit was to
ascertain the accuracy and completeness of the partner organization records and
reporting of direct and indirect costs and provide an opinion on the provisional rate.

The partner computed the overhead indirect costs using the fringe benefits provisional
rate rather than actual fringe benefit costs which caused indirect cost rates to be
overstated. Also, the partner did not report to ADF revenues and expenses related to
three outside consultancies which should have been included in the computation of
indirect costs which were not adequately supported. In addition, during the period of
October 2005 to September 2006, the partner organization double-charged ADF
$117,075 for its indirect costs (charging ADF not only for its actual costs incurred but
also its provisional indirect costs) and invested ADF funds in an investment account.
However, by the end of our fieldwork, the partner organization had transferred the entire
overcharged amount and interest earned to ADF. Therefore, we are not questioning this
amount.

The cooperative agreements between the partner organization and ADF stated that an
audit will be conducted annually and a final indirect cost rate will be established.
However, since April 2004, under the last three cooperative agreements with ADF, the
partner organization did not audit its indirect cost rates as required and did not submit
certificates of final costs. As a result, the partner organization overcharged ADF
$182,866 in unallowable fringe benefit and indirect costs as described in Table 1.




                                                                                           6
Table 1. Provisional and Final Indirect Cost Rates

                                  Indirect Rate                    Fringe Benefit Rate
                                                                                      Amount
    Agreement      Period                                                           Overcharged
       No.       Covered     Provisional      Final     Provisional     Audited       to ADF
                April 2004
                to April
        1541    2005              38.91%     45.26%         N/A           N/A            $12,7343
                 May 2005
                to
                December
        1602    2005              45.31%     30.32%          67.55%      36.91%           $32,813
                January
                2006 to
                December
        1602    2006              24.83%     13.70%          63.10%      53.09%           $55,126
                January
                2007 to
                March
        1690    2008              25.84%     16.17%          73.17%      66.96%           $82,193

        Total                                                                            $182,866

The final certification of indirect cost rates was not conducted as per ADF policies
because the local accounting firm that performed the partner organization’s audits was
not aware of the rules and regulations that pertain to the audit of indirect costs.
Consequently, they did not perform an audit of indirect cost rates in accordance with the
applicable guidance. Also, the partner organization was not aware of the requirements of
ADF and OMB Circular A-122 as they pertain to the process of establishing and
calculating indirect cost rates and the need to monitor, review and audit indirect cost
rates. Also, the former regional program coordinator and ADF/Washington did not
provide adequate oversight to ensure that audits of indirect cost rates were performed in
accordance with ADF policy.

According to the above-mentioned guidance, the use of an indirect cost rate was not
warranted for the partner organization in Ghana because the partner organization had
only a handful of employees, managed only one ADF award at a time, and did not have
an adequate accounting system. Audits of awards that include a provisional indirect cost
rate are more expensive than other audits because these awards need an audit not only
of the fund accountability statement but also of the indirect cost rate. Awards that
include an indirect cost rate place more of a burden on ADF staff because such awards
require ADF to develop and implement procedures that monitor and update the indirect
cost rate and ensure that the rate complies with the relevant requirements of OMB
Circular A-122 and CIB 97-9. In May 2008, as a result of this OIG audit ADF/Washington
eliminated the use of indirect cost rates with all ADF partner organizations.
ADF/Washington also used indirect cost rates with partner organizations in eight
additional countries in Africa.

3Even though the final indirect cost rate was higher than the provisional rate, indirect costs were
overcharged because actual labor costs were much higher than budgeted costs. The distribution
base for the indirect cost computation was labor costs.


                                                                                                 7
The result of not determining final indirect cost rates was that the partner organization
overcharged ADF by $182,866 during the 4-year period. By minimizing the use of
indirect cost rates, ADF would reduce its audit costs and level of effort.

   Recommendation No. 5: We recommend that the African Development
   Foundation determine the allowability of questioned indirect costs totaling
   $182,866 and recover the amounts determined to be unallowable from the
   partner organization.

   Recommendation No. 6: We recommend that the African Development
   Foundation amend its award documents to eliminate the use of indirect cost rates
   with African Development Foundation partner organizations and contact local
   accounting firms to conduct indirect cost rate audits for the other eight countries
   where indirect cost rates were used.

Audits Not in Compliance
with ADF Policy

 Summary: ADF policy requires that financial audits be conducted according to U.S.
 Government auditing standards and ADF Guidelines. However, OIG auditors found
 that the audits of the partner organization conducted by a local public accounting firm
 did not comply with this guidance. This noncompliance occurred because of a lack of
 oversight from the former regional program coordinator, the country representative,
 and ADF/Washington. As a result, $13,959 of audit costs were charged to ADF
 contrary to the agreements. In the absence of compliant audit reports, ADF increased
 its risks of financial loss and could not ensure that funds were accounted for and used
 for intended purposes in accordance with applicable laws and regulations.

ADF’s Field Audit Guidelines for Grants and Cooperative Agreements (ADF Guidelines)
state that ADF funds provided to nongovernmental recipients are to be audited in
accordance with U.S. Government auditing standards and ADF Guidelines. It required
that the audit firms be on the OIG list of eligible firms. It also stated that the
ADF/Washington finance division will conduct quality control reviews of the work papers
for a selected sample of audits to determine whether audit work was performed in
accordance with ADF Guidelines. This guidance also required that ADF/Washington
contract with the audit firms and review the audit reports before being finalized. The
grant agreements stated that the partner organization would have annual financial audits
in accordance with U.S. Government auditing standards. The standard provisions stated
that an audit shall be completed, and the report submitted not later than 9 months after
the close of the recipient’s fiscal year. It also stated that the OIG would review the report
to determine whether it complies with the audit requirements of the award.

The last two audits that the local public accounting firm performed for the partner
organization (covering the period April 2004 to December 2006) were not completed
according to U.S government auditing standards and ADF Guidelines, and were not sent
to the OIG for review. Also, the local accounting firm responsible for conducting the audit
of the partner organization was not on the OIG list of eligible firms. The audits were not
contracted by ADF and the audit reports were not reviewed by ADF/Washington. Based
on the interview with the audit firm and review of their work papers and audit reports, the
audit team identified the following deficiencies:


                                                                                           8
•	 The reports’ fund accountability statements did not include, as required, cash
   reconciliations and the notes to the fund accountability statements did not briefly
   describe the major budgeted items.

•	 The reports did not include an audit of the indirect cost rates.

•	 The reports did not include the scope and objectives of the audits and the audit firm
   had no supporting documentation for adjustments made to some expenditures in the
   audit report.

•	 There was no evidence in the work papers that an exit conference was conducted.

•	 The last two audit reports were completed 26 months and 11 months after the end of
   the fiscal years and were not submitted to the OIG for review as required by the
   partner grant agreements.

The partner organization paid $13,959 for audit costs during the period under review.
However, as stated in the grant agreements’ standard provisions and ADF Guidelines,
no audit costs may be charged to ADF’s award if audits have not been made in
accordance with the terms of this provision.

The lack of compliance with the appropriate standards was mainly due to a lack of
quality control program for the audits as well as a lack of oversight by the regional
program coordinator and ADF/Washington. Despite the internal control and compliance
deficiencies found during our audit concerning the partner organization’s control
environment, the local public accounting firm’s last two financial audit reports did not
include findings or questioned costs.

Without timely and compliant financial audits, ADF increased its risks of financial loss
and could not ensure that funds were accounted for and used for intended purposes and
in accordance with applicable laws and regulations. To ensure compliance with
appropriate auditing standards, this audit makes the following recommendations.

   Recommendation No. 7: We recommend that the African Development
   Foundation issue a bill for collection to its partner organization to recover
   $13,959 in audit fees charged to the award.

   Recommendation No. 8: We recommend that the African Development
   Foundation require its internal auditor to review the audit reports on its partner
   organizations before the audit firms finalize their reports.

   Recommendation No. 9: We recommend that the African Development
   Foundation comply with its grant agreement’s standard provisions and issue
   specific guidance requiring its partner organization to submit its audit reports for
   review to the USAID Office of Inspector General and verify that the accounting
   firm is on the list of eligible firms.




                                                                                          9
Lack of Monitoring and
Evaluation System

    Summary: ADF policy and grant documents state that the partner organization and the
    country representative office will provide the grantees with technical assistance and
    related training and regularly monitor the program. However, the ADF/Ghana partner
    organization and country representative office had not developed or implemented an
    integrated and coordinated monitoring and evaluation system and provided grantees
    with necessary training. This was due to a lack of oversight by ADF/Ghana’s former
    regional program coordinator, a lack of coordination between the ADF/Ghana regional
    office, country representative office and the partner organization, as well as a
    dysfunctional organizational structure. As a result, ADF/Ghana could not fully measure
    the efficiency and effectiveness of the program and ensure compliance with ADF
    policies.

ADF policy stresses the importance of ongoing monitoring and providing technical
assistance to grantees to ensure early identification and the correction of problems and
to ensure the quality of collected information. ADF policy requires that both the ADF
country representative office and the partner organization implement program
monitoring, evaluate the grantees’ progress and provide training. Although the country
representative office and the partner organization provided some technical assistance,
they did not develop a monitoring schedule for their 13 business development officers4 ,
had no mechanism in place to ensure adequate documentation of the grantees’ progress
in achieving objectives and had not assisted the grantees in obtaining the training
required for smooth project implementation.

During the audit team’s visits and interviews of 8 of 39 active grantees, the audit found
that no training or technical assistance had been provided to the grantees in support of
project development, financial management or the development of necessary technical
skills. Only one of the eight grantees visited was able to complete ADF progress reports,
and the information reported by these grantees had not been verified (see finding on
page 12). Also, these eight grantees had not implemented adequate financial
management systems (see finding on page17.)

The audit team also found that the performance indicators selected to monitor progress
were more closely related to ADF inputs than to outputs and were not verifiable. As a
result, ADF could not measure whether the grantees were achieving their objectives as
per the terms of the agreement. For example, several grants’ performance indicators
were to hire an accountant, hire a bookkeeper, and procure a financial accounting
system as opposed to indicators that measured the performance of the grantees in
increasing profitability and in institutional strengthening. Also, several grants included as
a performance indicator a functioning board of directors which was not easily
measurable and verifiable. However, if the output was defined as the number of board
meetings held and supported by adequately written minutes that summarize issues
discussed and action taken, it could be more easily measured.

4 According to the terms of their contract, business development officers participate in the
execution of project development, project implementation and performance monitoring, as well as
program/project reporting.



                                                                                            10
Within the partner organization, there was limited focus on monitoring and evaluation
and monitoring was done mainly for reporting purposes with limited integration into the
strategic planning and implementation processes. According to ADF policy, monitoring
was intended to facilitate prompt interventions to resolve issues that might be impeding
project success. Several monitoring visits were conducted during the period October
2006 to March 2008, however, only a few were documented and in most cases, the
monitoring reports were incomplete. The monitoring reports usually did not address the
grantees’ progress toward each objective, and did not document steps needed to
resolve issues that may be impeding project success. Also, the reports did not follow-up
on the local accounting firm’s audit findings and recommendations and whether these
deficiencies had been corrected and questioned costs reimbursed to ADF.

According to ADF policy, the partner was the first line of project monitoring and the
country representative office was to provide oversight. The audit team found that two of
the eight projects visited were under the direct supervision of the country representative
office and no staff member from the partner organization had been assigned to monitor
these two grants; both grants had compliance deficiencies. A lack of coordination
between ADF/Ghana’s partner organization, country representative and regional
coordinating office, as well as a dysfunctional organizational structure negatively
impacted the development of a monitoring and evaluation system. Coordination is not
something that occurs naturally between organizations. It must deliberately be
encouraged. Yet, systems that facilitated coordination were lacking. For example, the
partner’s 11 business development officers were working and paid for by the partner
organization, yet they were under the direct supervision of the regional program
coordinator and were located in two different buildings so the partner’s managing
director could not easily monitor the work performed by its business development
officers. Also, the business development officers were having regular meetings with the
country representative office without the presence of the partner organization. The
information systems were not adequate to track the performance of the grantees’
projects and identify poor performing projects. Project files located in different buildings,
were incomplete and inconsistent, and no summary control checklist existed in each
grantee’s file which documented when a grant was awarded, how much funds were
received, if a financial audit had been performed, if follow-up on prior recommendations
had been done, if progress reports were submitted, if grantees achieved objectives, and
the precise address of the grantee to facilitate field visits.

Though the partner organization had 11 business development officers and the country
representative office had 2 business development officers to manage 39 projects, there
was no integrated monitoring plan that put forward who would go where and when. The
way that the country representative office and the partner organization divided up the
work of assisting grantees, efforts were duplicated and coordination and cooperation
were lacking. As a result, ADF/Ghana could not fully determine whether a project was
achieving its objectives, improve implementation or monitor the quality and timeliness of
outputs produced by the grantees. Without a monitoring and evaluation system,
ADF/Ghana cannot measure the efficiency and effectiveness of the program. Because
ADF/Ghana did not have a monitoring and evaluation system in place the grantees did
not receive needed technical assistance and training to improve project performance.
The longer the program continues to be implemented without a monitoring and
evaluation system in place, the less likely the program will be a success.




                                                                                          11
   Recommendation No. 10: We recommend that the African Development
   Foundation/Ghana establish a monitoring and evaluation system. This will
   include at a minimum a control information checklist for each project
   implemented.

   Recommendation No. 11: We recommend that the African Development
   Foundation issue clarifying guidance to improve coordination and cooperation
   between the regional office, the country representative office and the partner
   organization in Ghana and define clear lines of responsibility to avoid duplication of
   efforts and improve program implementation.

   Recommendation No. 12: We recommend that the African Development
   Foundation revise its performance indicators to reflect grantee outputs to
   adequately measure progress towards achieving objectives.

Progress on Achieving Objectives Not
Reported and Verified
 Summary: According to ADF guidance, grantees should submit timely progress
 reports and verify performance data for completeness and accuracy. However, the
 partner organization and country representative office did not periodically ensure that
 the progress reports were submitted and did not verify the accuracy of the reported
 data. Among 39 active projects, only 19 (49 percent), had submitted their progress
 reports for the quarter ending December 2007 by the end of April 2008. For the fiscal
 year ending September 2007, 54 percent of grantees submitted their progress reports.
 Also, for 29 of the 35 results reviewed (83 percent), the results reported by grantees
 were incomplete, inaccurate or unsupported. This was due to an inadequate
 monitoring system, a lack of oversight as well as unclear guidance regarding
 ADF/Ghana’s management responsibility to verify the reported performance data. As
 a result, ADF could not reliably determine whether grantees were meeting their
 objectives or assess the impact of the ADF program in Ghana.

ADF required all grantees to submit quarterly progress reports that included information
on the current period as well as cumulative progress for the fiscal year. The format of the
quarterly reports included a section on the analysis of the performance indicators, a
grant description, an analysis of project achievements during the period, and a
description of perceived risks and problems. A review of the quarterly progress reports
for the period October 2006 to March 2008 showed that 95 of 218 reports were not
submitted and the information reported was not accurate, complete and supported.
According to the ADF Manual, Sections 630 and 631, the country representative and the
partner organization will verify the grantees’ reporting on performance targets to ensure
that the reports are accurate and complete.

However, grantees did not submit some required progress reports. Only 54 percent of
the grantees’ progress reports were submitted to ADF/Ghana for fiscal year 2007 and
only 49 percent of active grantees submitted the reports for the quarter ending
December 2007 by the end of April 2008. The information reported was often not
accurate, complete or supported. Progress reports for the quarter ending September
2007 did not convey a complete and accurate picture of the progress made towards
achieving the planned outputs. While visiting 8 of 39 active project sites, the audit team


                                                                                        12
compared information included in the ADF progress reports to supporting
documentation. In 29 of the 35 results reviewed, information on actual results reported
by grantees was inaccurate/unsupported, and incomplete as shown in Table 2 below.

Table 2. Review of Results Reported by Grantees

                                                                     Inaccurate/
                              Total         Items                        Not
  Project # and Name          Items        Tested         Accurate   Supported     Incomplete

 1580 Woodhouse                       7           7              0             5            2
 1646 Ghana Nuts                      6           6              4             2            0
 1662 Creche Emily                    7           5              0             2            3
 1664 E. K. Agyei                     6           6              0             4            2
 1710 Santinos                        6           6              1             5            0
 1725 Teikura                         6           5              1             4            0
                                No
                             progress
 1738 Brooks *                reports
                                No
                             progress
 1795 Yedent *                reports
 TOTAL                               38          35              6            22            7

*No progress reports submitted since project inception.

The ADF/Ghana partner organization and the country representative did not have a
monitoring system in place to validate reported results and to ensure that all progress
reports were submitted to ADF. Even though, based on the travel advances claimed,
numerous monitoring visits were conducted by the partner organization, the audit team
found that the reported information was not verified. Several examples of inaccurate and
incomplete results follow:

•	 The number of Woodhouse employees was underreported while the salaries paid
   and production figures were overreported. For the quarter ending June 2007,
   Woodhouse reported 52 employees while the audit found supporting documentation
   for 98 employees. However, for the quarter ending in September 2007, the number
   of employees was not reported. Woodhouse reported salary payments of $92,245
   for the quarter ending September 2007 while the OIG auditors found supporting
   documentation for $38,552. For the quarter ending September 2007, Woodhouse
   reported producing 80,000 pieces of furniture. However, according to its production
   records, only 1,298 were produced. Also, no information was included in the
   progress reports on the grantee’s contribution to a staff cafeteria, to a scholarship
   scheme, or to a provident fund.

•	 The revenues generated by Creche Emily, a preschool nursery were overreported by
   more than 25 percent because data was not verified even though the grantee was
   located only a 15-minute drive from ADF/Ghana’s office. In its report for the quarter
   ending September 2007, Creche Emily reported revenues of $9,747. However, the
   records indicated revenues of $7,622. Also, even though the grant objective was to



                                                                                           13
•	 increase the number of children attending the preschool, enrolment-related
   information was not included in the progress report.

•	 Santinos, a meat processing project, overreported the number of employees while
   salaries and production figures were underreported. Santinos reported engaging 20
   employees during the quarter ending September 2007. However, documentation was
   found for only 9 employees. During the same period, Santinos reported paying
   salaries of $2,955. However payroll records showed salary payments of $3,876.
   Santinos reported producing 2,660 kg of processed meat for the quarter ending
   September 2007. However, a review of the production records showed that Santinos
   produced 9,114 kg.

•	 E. K. Agyei, a producer of dried pepper, reported revenues of $9,097 and $12,180
   for the third and fourth quarters of FY 2007, respectively. However, the audit found
   supporting documentation for revenues of $5,181 for the quarter ending in June
   2007 and of $3,031 for the quarter ending September 2007. Also, the progress report
   did not include information on the implementation of the financial system or the
   business plan which were both indicators in the grant agreement.

According to ADF policy, the country representative and the partner organization were
responsible for validating the reported data. However, the scope of work for the country
representative and the partner organization did not include any specific responsibilities
to ensure that reported information would be verified. An inadequate monitoring and
evaluation system, a lack of oversight, and of periodic reviews of performance data
contributed to the weakness of the data collection, analysis and reporting procedures.
Consequently, ADF could not reliably determine if program activities were meeting
objectives or address related implementation problems. Without reliable information,
decision makers can draw erroneous conclusions regarding the performance of the
projects leading to improper management decisions and the reporting of incorrect
information to Congress.

To correct the above deficiencies, this audit makes the following recommendation.

   Recommendation No. 13: We recommend that the African Development
   Foundation define and delineate the responsibilities of its partner organization
   and its country representative office in Ghana, to include the verification and
   timeliness of grantees’ progress reports to obtain reasonable assurance that the
   information is accurate and complete.

Indications of Fraud and Misuse
of Funds by ADF/Ghana Grantees

 Summary: According to ADF and the Government Accountability Office auditing
 guidance, when there is reason to suspect that illegal acts, violations of provisions of
 agreements or indications of fraud have occurred, these matters must be referred to
 the ADF Finance Division and the OIG. Also, OMB Circular A-122 and ADF policy
 require fair bargaining processes and effective use of resources. However, during the
 visits to grantee project sites, the audit team found indications of fraud and misuse of
 funds. This occurred because of deficiencies in the design and operations of the



                                                                                       14
 internal control system at ADF/Ghana, a lack of oversight and an inadequate
 monitoring and evaluation system. As a result, questioned costs amounting to
 $516,492 were identified. If ADF/Washington and the OIG are not notified of
 allegations, investigations of possible fraud cannot be made, corrective actions may
 not be taken, and further losses may occur.

According to ADF standard provisions, all procurement transactions over $10,000 shall be
conducted in a manner to provide open and free competition. OMB Circular A-122 states
that in determining the reasonableness of a given cost, consideration shall be given to
such factors as generally accepted sound business practices, arms-length bargaining,
and Federal and State laws and regulations. ADF Manual 630 states that monitoring is
“a quality assurance process to ensure the effective use of resources provided by the
Foundation.” In addition, U.S. Government auditing standard 4.29 states that when there
is reason to suspect that misstatements arising from fraudulent financial reporting or
misappropriation of assets have occurred, this information must be reported to the
investigatory authorities of the auditee in question, in this case, the OIG. According to
the ADF guidelines, any evidence of irregularities or illegal acts should be reported to the
ADF Director, Finance Division.

The Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government states that an agency’s internal controls should provide reasonable
assurance concerning the effectiveness and efficiency of operations, including the use of
the entity’s resources. In this case, ADF/Ghana’s limited internal controls were not able
to effectively manage the use of resources by its partner organization, its country
representative and its grantees.

ADF grant agreements state that a grantee commits a dishonest act if it makes a false
statement to ADF regarding a material fact that misrepresents information, and that
commission of a dishonest act by the grantee may automatically terminate the grant. In
case of such termination, ADF will require the grantee to return to ADF all grant financial
and physical property. In the audit team’s opinion, the following three grantees did not
comply with the terms of the agreement and are subject to reimbursement of the totality of
the funds received from ADF which totaled $516,492

The partner’s grant agreements require the partner to perform procedures and minimize
the risk of misuse of funds by grantees. Yet, we did not find evidence that the partner
organization or the country representative office complied with this requirement. During
visits to the grantees, and reviews of project documentation the audit team found
irregularities and misuse of funds by three of eight visited grantees as described below.

•	 Santinos, a meat processing enterprise, purchased a used meat grinder at a cost of
   $36,550. The grinder was purchased from the project manager who was a related
   party. Santinos paid $6,550 more than the price of $30,000 stated on the proforma
   invoice. Also, in 2006, Santinos submitted a disbursement request to ADF/Ghana to
   procure 4 pieces of equipment for meat processing valued at $34,920. The vendor
   selected by Santinos was named ADF International Procurement Company. The
   name of the vendor aroused suspicion within ADF/Washington and subsequent
   research revealed that the company did not exist and the address listed on the
   proforma invoice was that of an immigration law office in Minneapolis, Minnesota. At
   that time, ADF/Washington wanted to terminate the grant, but the ADF/Ghana
   regional coordinator said that instead they would monitor the grantee closely.


                                                                                         15
•	 According to the amended and revised budget, Woodhouse, a furniture maker, was
   expected to purchase a 15-seat bus to provide transportation to its employees
   working on the night shift. However, Woodhouse procured a minivan. Based on the
   evidence collected, the minivan was used by the wife of the project director to
   transport their children to and from school. Also, Woodhouse purchased a used, non-
   functioning generator in June 2005 and charged ADF $22,421. The generator had
   never been used because the oil pan was missing and the hours of usage noted by
   the OIG auditors were the same as on the invoice. The price of a new generator from
   a reputable supplier was $19,900 as of October 2007. In addition, ADF/Washington
   directly transferred $14,625 to a supplier in Ghana to develop an integrated software
   package. The supplier developed and installed the software and trained five
   Woodhouse employees on the software. However, the Woodhouse director requested
   that the total sum be transferred to him personally on the premise that the software had
   not been developed. If the software was not working as it was intended to, it was
   because Woodhouse had not collaborated with the supplier and installed a network so
   that the software could be used simultaneously by the production and sales
   departments. Woodhouse with the assistance of the country representative recovered
   from the supplier under threat the sum of $14,625 but did not deposit the money into
   ADF’s bank account. Instead, the money was deposited in Woodhouse’s own business
   account. The partner’s staff member assigned to this grantee left ADF/Ghana in April
   2007 after reporting irregularities in the financial information reported by the grantee.
   Since that time, only the country representative office was directly responsible for this
   grantee, contrary to ADF policy which requires that the partner organization monitor the
   grantees.

•	 Creche Emily, a preschool nursery, was approved by ADF on the assertions that the
   school building was a one-story house, located in a poor part of town and serving
   200 school children. However, the audit team found that the building was three
   stories and located in an affluent neighborhood of Accra. The team also found that
   the grantee was living in the third floor of the building and her mother, who owned
   the building, was living in the second floor. The audit team also found that during the
   last three years, this project had only served about 100 children. ADF assistance
   provided the grantee with an extension of three rooms, a kitchen and all sorts of
   kitchenware to furnish the kitchen. This was a one year organizational grant, yet
   most of ADF funds were spent on capital assets and no business plan was
   developed as required by the grant document. We also found that ADF had been
   charged $1,100 for the accounting software QuickBooks 2006 while in the United
   States the software can be purchased for less than $200. In addition, the audit found
   that the project’s air conditioner, the microwave, the desktop computer and the
   laptop computer were stored on the third floor of the building in the grantee’s home
   rather than in the preschool nursery. This project was only a 15-minute drive from the
   partner and the country representative offices so it was easy to monitor. Yet,
   accurate information on the grantee and misuse of ADF funds were not reported by
   the partner organization and the country representative office to ADF/Washington.

Although, the country representative office and the partner organization staff conducted
numerous site visits to these projects, they did not verify that assets were procured and
used for intended purposes. The misuse of ADF funds occurred primarily because of a
lack of adequate monitoring and oversight by ADF/Ghana as well as a weak control
environment. As a result, ADF funds were not used in compliance with ADF policy and
for intended purposes. If ADF is not aware of these irregularities, it cannot inform the


                                                                                         16
OIG of allegations of impropriety, a proper investigation of potential fraud cannot be
conducted, corrective actions may not be taken, and further losses may occur. To
correct these deficiencies, this audit makes the following recommendations.

   Recommendation N.14:       We recommend that the African Development
   Foundation determine the allowability of $516,492 disbursed to grantees and
   recover the amounts determined to be unallowable.

   Recommendation No. 15: We recommend that the African Development
   Foundation develop procedures to minimize the risks of misuse of funds and
   verify that assets are procured and used in compliance with African Development
   Foundation policies.

Several Grantees Suffered from
Weak Financial Management Practices
Summary: According to ADF grant documents, grantees shall establish a financial
management system to properly account for funds received. Only one of the eight
grantees visited had an adequate financial management system, in part because the
grantees did not receive training and proper guidance on financial management
practices. As a result, neither ADF/Ghana nor the grantees were able to determine the
profitability and sustainability of the projects. Poor financial management practices can
potentially lead to fraud, waste, and abuse.

According to ADF agreements, grantees should increase their management capacity,
and develop and implement accounting and financial procedures. An accounting system
usually provides the necessary documentation to allow for the verification of
transactions, facilitates timely preparation of disbursement requests, and provides
information on the profitability of projects. The partner’s grant agreements state that the
partner will visit project sites to assist grantees in maintaining sound financial
management practices and provide onsite training to address deficiencies. However,
only one of the eight grantees visited had an adequate financial management system
and had performed an analysis of profitability. Moreover, none of the grantees visited
had received any formal training in financial management and four grantees were not
using computerized accounting software or Microsoft Excel even though ADF-funded
computers were available.

A few specific examples of financial management weaknesses follow.

•	 Woodhouse, a grantee with a furniture manufacturing project, was awarded a grant
   in September 2004. The grantee had received $14,625 for the development of an
   integrated production-sale and financial accounting system. The auditors found
   during their site visit that the grantee routinely prepared its financial records manually
   even though ADF/Ghana had provided the grantee with four computers. Moreover,
   the grantee’s accounting records were inadequate. The draft audit report issued by a
   local accounting firm in May 2008 stated that Woodhouse was commingling ADF
   funds with other operational incomes and that the bank balance did not reconcile
   with the fund accountability statement as of January 31, 2008.




                                                                                          17
•	 E. K. Agyei, a grantee with a pepper-processing enterprise, was awarded a grant in
   August 2006 to acquire and implement a functional financial management system
   including training for the accounting officer. However, during our visit to the grantee
   we found that E. K. Agyei had no accounting system, the new accountant did not
   know how to use a computer, had not received any training and was using a basic
   manual accounting system. Yet, ADF/Ghana had funded two computers and paid for
   the salaries of one accountant and one bookkeeper. Moreover, the partner
   organization had conducted at least 13 field visits to this grantee during the period
   January 2007 to March 2008.

•	 Santinos, a food-processing project, was awarded a grant in September 2006.
   Santinos had a manual record-keeping system and could not provide supporting
   documentation for the sales or the profit and loss reported. The audit found that the
   grantee was commingling ADF funds with other funds. Supporting documents for
   quarterly ADF liquidations were missing, and expenses were recorded for items that
   were not in the approved budget. The grantee’s accounting records were produced
   manually and were in disarray. However, according to the grant agreement,
   ADF/Ghana was to provide assistance to improve all accounting procedures,
   develop a financial management system and conduct training.

These financial management weaknesses were due to a lack of technical assistance
and training by the partner organization. All of the grantees interviewed said that the
partner organization did not provide them with technical assistance on financial
management practices even though financial management training was budgeted for all
grantees visited. Weak financial management practices followed by grantees can result
in disallowances or delays in receiving ADF funds that are needed for project activities.
Weak financial management practices may also create vulnerabilities to fraud, waste,
and abuse.

   Recommendation No. 16: We recommend that the African Development
   Foundation prepare an action plan for providing grantees with financial
   management training with specific implementation dates and assign specific
   responsibility to the partner organization to ensure that grantees adopt sound
   financial management practices.

Grantees’ Noncompliance with
Agreement Terms
Summary: Several grantees were not in compliance with the terms of their agreements.
The concerned grantees did not contribute, as required, to the ADF-designated
community development trust fund. Also, the contributions were not held in an ADF trust
fund account. This instance of noncompliance with the grant agreements was due to a
lack of policy and procedures by ADF/Washington, inadequate monitoring and
evaluation system and a lack of oversight by the ADF/Ghana regional program
coordinator. As a result, $69,694 was provided to two organizations without proper
approval from ADF/Washington. Also, ADF increases its risks of financial loss and could
not ensure that funds were accounted for and used for intended purposes.

According to ADF’s grant agreements for some projects, the grantee shall contribute a
certain sum to an ADF-designated community development trust fund (Fund) established to


                                                                                       18
further social and economic development at the community level. The contributions are
required during the life of the agreement and are deposited into an interest-bearing account
established in the name of the Fund. It also states that if the Fund has not been established
the payments would be made to the partner organization. Of the projects implemented by
ADF, 20 projects were required to contribute to the community development trust fund.
However, the audit found that even though 11 of 20 grantees had made some contributions
only 1 grantee had complied with the terms of the agreement and contributed the required
amount. Also, only $364,581 of $3.4 million required contributions (11 percent) had been
provided. Moreover, according to the terms of the agreements, the funds were deposited
with the partner organization without being held in a proper ADF trust fund. The audit team
also found that the partner organization did not adequately monitor and account for the
funds contributed. During the course of the audit, ADF/Washington staff, including the
internal auditor, were visiting Ghana in part to reconcile the partner organization’s account
and review transaction records. They found that the partner organization had provided
$69,694 to two organizations without proper approval of ADF/Washington or any
agreement documents.

This lack of compliance with the terms of the agreements was due to several factors
including: (a) no written ADF policy on the setup and use of the Fund (b) an inadequate
monitoring and evaluation system and (c) a lack of oversight by the regional program
coordinator. If ADF does not take action to ensure compliance with the terms of the
agreement, ADF loses credibility with the grantees and does not ensure the program’s
financial sustainability. For example, one grant awarded in 2005 was expected to
contribute $626,219. However, as of March 2008 the grantee had only contributed $5,102
and the project will end in September 2008. Another grantee was expected to contribute
$350,000. However, as of March 2008, the grantee had only contributed $5,100 and the
project was closed in September 2007. In addition, ADF increased its risks of financial
loss and could not ensure that funds were used for intended purposes. This also created
vulnerabilities to fraud, waste, and abuse.

According to its mandate, ADF strives to develop sustainable social enterprises.
However, the grantees have not developed sustainable businesses and have not been
able to fully contribute to the community reinvestment fund. Sustainable development is
development that continues to provide benefits after donor funding ends. ADF’s
enterprise development grantees had not developed plans to sustain activities once ADF
funds were no longer available. ADF did not adequately address sustainability because
higher priority was placed on project development. More attention needs to be devoted
to sustainability to better ensure that the grantees’ activities will continue after the
cessation of ADF funding. Paying salaries that the grantees will not be able to maintain
after ADF assistance ends does not contribute to strengthening these institutions. To
ensure compliance with ADF policy this audit makes the following recommendations.

   Recommendation No. 17: We recommend that the African Development
   Foundation establish relevant implementing procedures to (a) ensure that the
   grantees make their required contributions to the community reinvestment fund,
   (b) establish a policy on the use of the community development trust fund, (c)
   refund the amount of $69,694 of unauthorized contributions and (d) take the
   necessary steps to transfer grantees’ contributions totaling $364,581 from its
   partner organization to ADF/Ghana.

   Recommendation No. 18: We recommend that the African Development


                                                                                          19
Foundation develop a clear action plan that addresses sustaining project
activities after the African Development Foundation’s support has ended.




                                                                           20
EVALUATION OF
MANAGEMENT COMMENTS
The African Development Foundation generally agreed with the findings and
recommendations contained in the draft report. In its comments on the draft report, ADF
concurred with recommendation no. 1 and is reviewing the questioned costs to
determine their allowability and will initiate collection of all costs determined to be
ineligible or unsupported. With regard to recommendation no. 2, ADF has already taken
measures to strengthen its internal controls and ensure compliance with its policies. In
response to recommendation no. 3 ADF has undertaken an audit of its representative
office and has conducted solicitations to select a new partner. With regard to
recommendation no. 4, ADF has initiated actions to dispose of the unused equipment.
Based on the information provided, management decisions have been reached for
recommendation nos. 1, 2, 3, and 4.

ADF concurred with recommendation no. 5 and got reimbursement for a substantial part
of the amount questioned in the audit report. ADF is in the process of reconciling the
difference between that reimbursement and the questioned amount identified in the audit
report. We consider that a management decision will be reached when ADF makes a
determination on the allowability of the entire amount questioned in the audit report.
ADF stated that it did not agree completely with the statement that the partner
organization was not aware of the requirements of ADF and OMB Circular A-122
regarding the process of establishing and calculating the indirect cost rates and the need
to monitor review and audit the indirect cots rates. We agreed with ADF comments that
ADF provided guidance and instructed its partner organization regarding the
requirements of the indirect costs rates. However, the partner organization stated that it
had not read and understood the guidance and was not aware of the requirements.

In commenting on recommendation no. 6, ADF partially agreed to eliminate the use of
indirect cost rates with its partner’s organizations from those cooperative agreements
that expire after September 30, 2008. However, for practical reasons, ADF will not delete
the provisions from those agreements that expire on or before the end of fiscal year
2008 and for those partner organizations that have a Negotiated Agreement with a
cognizant Federal agency. We agreed with the approach of ADF and we consider that a
management decision has been reached for recommendation no. 6.

ADF agreed with recommendation no. 7. ADF will include these questioned costs in the
amount to be collected as part of the ongoing closeout with its former partner
organization’s cooperative agreement. In response to recommendation no. 8 ADF will
require its internal auditor to review the audit reports. We consider that a management
decision has been reached for recommendation nos. 7 and 8.

With regard to recommendation no. 9, ADF did not agree to have the partner organization’s
audit reports reviewed by USAID Office of Inspector General. Rather, ADF has established
an internal audit office which has the capacity to review the partners’ audit reports in
accordance with its policies. We maintain our recommendation and request that partners'
audit reports be sent to the OIG for informational purposes. The OIG will not formally



                                                                                       21
review the reports but will be informed of potential problems in the implementation of ADF
programs. This will allow the OIG to ensure the quality of these audits. A management
decision will be recorded when ADF has established a firm plan of action, with target dates,
for the recommendation.

With regard to recommendation no. 10, ADF agreed with the audit finding and will
ensure that the new partner establishes a monitoring and evaluation system. ADF
agreed with recommendation no.11 and has completed a major restructuring of the field
operations in Ghana. ADF will issue guidelines to improve coordination and define clear
lines of responsibility. Based on ADF’s comments, management decisions have been
taken on recommendation nos. 10 and 11.

ADF partially concurred with recommendation no. 12 on establishing output indicators to
adequately measure progress. ADF commented that it cannot revise output indicators.
Rather, ADF has issued guidelines on establishing accurate and measurable indicators.
We believe that ADF has taken appropriate action and, based on ADF’s response, a
management decision has been reached.

ADF concurred with recommendation no. 13. ADF will issue guidelines to delineate the
responsibility of field staff to include the verification and the timeliness of the grantees’
progress reports. Accordingly, a management decision has been reached on this
recommendation.

ADF agreed with recommendation nos. 14 and 15. In response to recommendation no. 14,
ADF will convene a termination committee to determine the allowability of costs and
determine a process for recovering the unallowable expenses.            In response to
recommendation no. 15, ADF is developing procedures and tools to monitor the financial
performance of grantees and the proper use of assets and also to train the partner
organization on these procedures and tools. Accordingly, we consider that a management
decision has been reached for recommendation nos. 14 and 15.

ADF concurred with recommendation no. 16 and will provide regular financial training to
the grantees through a separate agreement with a local accounting firm. Based on
ADF’s response, a management decision has been reached.

In response to recommendation no. 17, ADF partially agreed with the recommendation.
ADF is developing a policy on the community trust funds (Trust) and establishing a formal
trust as well as implementing an action plan to transfer the grantee contributions from its
partner organization. However, since grantee commitments to the Trust are voluntary
pledges, enforcement options open to ADF are limited. However, once the Trust is
operational, it will have the legal and moral authority to enforce pledges. ADF disagreed
that the former partner organization be required to reimburse $69,694 because the funds
were donated to legitimate community development activities and the decision was not
made by the partner organization. We agreed with ADF’s plan of action. A management
decision will be recorded when ADF has established a firm plan of action, with target dates,
for the establishment of the Trust.

ADF agreed with recommendation no. 18 and will issue guidelines for the development of a
sustainability plan for its active projects. Accordingly, a management decision has been
reached on this recommendation.



                                                                                          22
We believe that ADF’s comments and planned actions are responsive to the report’s
recommendations. ADF’s comments in their entirety are presented in appendix II. A
determination of final action with regard to the measures taken by ADF to address these
recommendations will be made by ADF’s audit committee upon completion of the
proposed actions. We ask that we be notified of the audit committee’s actions.




                                                                                    23
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope

The Office of the Regional Inspector General/Dakar (RIG/Dakar) conducted this audit of
the African Development Foundation in Ghana (ADF/Ghana) in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The purpose of the audit was to determine
whether ADF/Ghana implemented its activities in accordance with ADF policies and
selected U.S. Government regulations. The audit scope covered the period April 2004
to March 2008 to cover the entire period when provisional indirect cost rates were used.

In planning and performing this audit, RIG/Dakar obtained an understanding of and
assessed ADF/Ghana’s controls related to the management of its program including an
examination of accounting records and other auditing procedures which we deemed
necessary under the circumstances. The audit included a detailed review of 8 of 39
projects of ADF/Ghana active at the end of fiscal year 2007. We judgmentally selected a
sample of eight projects based on the amount of ADF funds disbursed and the potential
for assets to be misused while ensuring a representative mix of urban and rural projects.

During the audit, we interviewed ADF/Washington officials on temporary duty in Ghana
and officials from the partner organization, the country representative office and the
regional office. The fieldwork was performed from April 7, 2008 to May 9, 2008 at the
ADF offices in Accra, Ghana and at various grantee project sites throughout Ghana.
ADF/Washington obligated $7.5 million and disbursed $7.1 million to ADF/Ghana from
April 1, 2004 to March 31, 2008 for program-related activities.

Methodology
To answer the audit objective, we visited and conducted interviews at the ADF regional
and country representative offices as well as the partner organization responsible for
providing technical assistance and monitoring oversight of ADF projects. We reviewed
applicable ADF policy documents and documentation including grant documents,
budgets, general program documents and grantees’ progress reports. At the partner
organization’s office we reviewed all expenditure vouchers for the period April 1, 2004 to
March 30, 2008 and conducted an audit of indirect cost rates. We also reviewed the
partner organization’s bank statements, minutes of the board meetings, and provident
fund records. We followed up with several suppliers, hotels and other service providers
to obtain reasonable assurance of detecting situations or transactions in which
irregularities and illegal acts may have occurred.

At the eight grantee project sites visited, we observed the projects’ operations and
interviewed grantee representatives. We tested data included in the grantees’ progress
reports by comparing reported information to supporting documentation such as
production cards, sales invoices, payroll records, general ledgers, and other source



                                                                                       24
                                                                           APPENDIX I


documents for selected quarters and for selected performance results. We interviewed
auditors from the local accounting firms that conducted the audits of ADF grantees and
the partner organization. We also reviewed the financial audit reports for conformance
with ADF guidelines and verified whether the local accounting firms were on the OIG list
of approved audit firms.

To judge the significance of variances between reported accomplishments and
supporting documentation, we considered a variance of 10 percent or more to be
significant and reportable.




                                                                                     25
                                                                            APPENDIX II 





 MANAGEMENT COMMENTS



September 9, 2008



Mr. Dennis Bryant
Regional Inspector General
U.S. Agency for International Development
Ngor Diarama
Petit Ngor, BP 49
Dakar, Senegal

Dear Mr. Bryant:

I am writing regarding the Draft August 14, 2008 Office of Inspector General “Audit of the
African Development Foundation/Ghana Project Activities.” Attached is the US African
Development Foundation response to each of the 18 recommendations. The African
Development Foundation concurs with 14 of the recommendations, partially concurs with
3, and does not concur with 1 recommendation (Number 9). In the one instance in which
USADF does not concur, we agree on the substance of the recommendation but are
implementing what we believe to be an even stronger approach.

The African Development Foundation is a small USG agency with a high impact mission.
As created by Congress in 1980, ADF is to provide assistance to the most marginalized,
underserved, underprivileged populations in Africa and it is to be done in a community
participatory manner. The majority of the grant portfolio administered by ADF involves job
creation and local social benefits. Funding comes from the United States Congress and
in a more limited manner from strategic partner funds donated by host country
governments to carry out the USADF mission.

Appropriated funds and other available resources must be handled in a manner reflecting
the very best integrity, judgment, and management practices. ADF is in the process of
strengthening an internal audit unit, both in Washington, D.C. and in Africa, and has
advertised and is close to hiring a Senior Internal Auditor to supervise directly these
activities to ensure an ongoing review and assessment of internal controls. In addition, a
monitoring and evaluation unit was established last year to provide another continuing set
of eyes and ears to program activities. Finally, internal controls are vastly improved.

The Office of the Inspector General (OIG) Audit Report has helped identify several
program and administrative areas in Ghana that need to be either improved or fixed.


                                                                                       26
                                                                               APPENDIX II


ADF is doing that and the Board of Directors, staff and I appreciate the hard work and
attention to detail that has been put into this audit report by the IG staff.

All recommendations are being viewed in an urgent manner and as a part of the attached
response. ADF has identified a timeline for correction. New program activities in Ghana
have been temporarily suspended until ADF has in place all the necessary internal
controls, monitoring and evaluation, and management practices. The Africa Regional
Office, as identified in this audit report, has been closed and a new partner organization is
being selected. ADF maintains a small Ghana specific representative office and is
expanding an Accra based office responsible for auditing and internal controls.

Sincerely,



Lloyd O. Pierson
President/CEO


Attachments




                                                                                          27
                                                                             APPENDIX II 



                         ADF’s RESPONSE TO THE 

             AUDIT OF THE AFRICAN DEVELOPMENT FOUNDATION

                        GHANA PROJECT ACTIVITIES 

                        REPORT NO. 7-ADF-08-00X-P 


RECOMMENDATION NO. 1: We recommend that the African Development Foundation
determine the allowability of $202,100 in ineligible questioned costs and $127,836 in
unsupported questioned costs and recover from the partner organization the amounts
determined to be unallowable.

ADF RESPONSE: We concur.

Discussion: ADF is reviewing the questioned costs with the former partner
organization in Ghana. By September 30, 2008, we will initiate collection of all costs
determined to be ineligible or unsupported.

RECOMMENDATION NO. 2: We recommend that the African Development Foundation
establish a plan to correct internal control and compliance deficiencies discussed in this
report. This will include at a minimum the use of monthly timesheets, completion and
review of vehicle log books, approval of bank reconciliations, documentation of directors’
meeting and liquidation of travel advances.

ADF RESPONSE:         We concur.

Discussion: We have already taken measures to ensure the ADF staff remaining in
Ghana complies with internal control requirements. In June 2008, Washington staff
trained the field staff in a number of areas related to financial management, internal
control, and project monitoring. New procedures and tools for maintaining time sheets
and vehicle logs have implemented. A Washington-based staff person is providing
oversight from Ghana until the new field structure is in place.
ADF has ended its cooperative agreement with the partner that is the subject of this
report. At present we have no partner organization in Ghana. The selection of a new
partner based on full and open competition procedures is imminent. The target date for
bringing the new organization on board is October 1, 2008. At that time we will train the
new partner in ADF’s internal control procedures and financial management policies and
procedures, and issue the final master plan for ensuring the partner and ADF field staffs
comply with the internal control requirements.

RECOMMENDATION NO. 3: We recommend that the African Development Foundation
issue a request for proposals (a) to conduct a financial audit of its Ghana country
representative office for the calendar year 2007 to assess whether ADF funds were used
in compliance with ADF policies; and, (b) to select a partner based on a competitive
process to comply with U.S. regulations.

ADF RESPONSE:         We concur.

Discussion:      ADF has completed most of the actions required to satisfy
Recommendation No. 3. A local auditing firm on the Inspector General’s list of approved
firms has completed an audit of the Ghana country representative’s office. ADF has
solicited for a new partner. ADF used competitive procedures that comply with U.S.
regulations to conduct the solicitations for the local accounting firm and the new partner.


                                                                                        28
                                                                                APPENDIX II 



 By September 30, 2008, we will (a) determine if the country representative used ADF’s
 funds properly and take collection actions, as appropriate; and, (b) award a partner
 cooperative agreement to a new organization.

RECOMMENDATION NO. 4: We recommend that the African Development Foundation
take appropriate measures to sell or replace unused assets.

ADF RESPONSE: We concur.

Discussion: In March 2008, ADF initiated actions to dispose of the unused equipment in
the Ghana field offices. All of the equipment except two satellite dishes and a satellite
signal modem have been relocated to other ADF offices. In August, a final determination
was made that no other ADF offices could use the remaining equipment. Since that
determination, ADF has been in discussion with USAID/Monrovia to determine if the
equipment meets the Mission’s needs. ADF also will offer to sell the equipment to other
United States Government Agencies in Ghana. If the offer does not result in a sale, ADF
will include the equipment in the auction managed by the United States Embassy in
Ghana, at the earliest possible opportunity.

RECOMMENDATION NO. 5: We recommend that the African Development Foundation
determine the allowability of questioned indirect costs totaling $182,866 and recover the
amounts determined to be unallowable from the partner organization.

ADF RESPONSE: We concur.

Discussion: The partner organization that is the subject of this report has returned to ADF
$129,000 of the payments ADF made for indirect costs. ADF is in the process of
reconciling the difference between that reimbursement and the questioned amount
identified in the report. However, we do not agree completely with the statement on page
7 of the report, which reads as follows: “...the partner organization was not aware of the
requirements of ADF and OMB Circular A-122 as they pertain to the process of
establishing and calculating indirect cost rates and the need to monitor, review and audit
indirect cost rates.” The ADF staff provided guidance and instructed the partner
organization in the calculation and requirements of the indirect cost rates.

RECOMMENDATION NO. 6: We recommend that the African Development Foundation
amend its award documents to eliminate the use of indirect cost rates with African
Development Foundation partner organizations and contact local accounting firms to
conduct indirect cost rate audits for the other eight countries where indirect cost rates
were used.

ADF RESPONSE:            We concur in part.

Discussion: Currently, eight of ADF’s partners’ cooperative agreements have indirect cost
provisions. ADF will require each of these organizations to contract with local accounting
firms on the USAID Office of Inspector General’s list of eligible firms to conduct an audit of
the organizations’ indirect cost rates in accordance with the United States Generally
Accepted Government Auditing Standards (GAGAS). We will eliminate the indirect cost
provisions from those cooperative agreements that expire after September 30, 2008. For
practical reasons, we will not delete the provisions from those agreements that expire on
or before the end of Fiscal Year 2008. In addition, ADF will not delete the indirect cost


                                                                                           29
                                                                              APPENDIX II


rate provision for those partner organizations that have an indirect cost Negotiation
Agreement with a cognizant Federal agency.

RECOMMENDATION NO. 7: We recommend that the African Development Foundation
issue a bill for collection to its partner organization to recover $13,959 in audit fees
charged to the award.

ADF RESPONSE: We concur.

Discussion: ADF will include this amount in the collection issued as part of the ongoing
closeout of the former partner organization’s cooperative agreement.

RECOMMENDATION NO. 8: We recommend the African Development Foundation
require its internal auditor to review the audit reports on its partner organizations before
the firms finalize their reports.

ADF RESPONSE: We concur.

Discussion: ADF has amended the position description for the ADF internal auditor to
require the incumbent to review the audit reports of partner organizations before the firms
finalize their reports. In addition, we will amend the partner organizations’ cooperative
agreements to incorporate this change.

RECOMMENDATION NO. 9: We recommend that the African Development Foundation
comply with its grant agreement’s standard provisions and issue specific guidance
requiring its partner organization to submit audit reports for review to the USAID Office of
Inspector General and verify that the accounting firm is on the list of eligible firms.

ADF RESPONSE: We do not concur.

Discussion: At the time this requirement was added to the standard provisions of the
cooperative agreements, ADF did not have an internal audit function. Recently,
management decided to establish an internal audit office in Washington that will include
two senior auditors and field support staff in Accra. The new audit office will have the
capacity to review the partner audits, and the office will ensure that only firms determined
eligible by the USAID Office of Inspector General will conduct the audits. We will amend
the standard provisions to reflect this change.

RECOMMENDATION NO. 10:              We recommend that the African Development
Foundation/Ghana establish a monitoring and evaluation system. This will include at a
minimum a control information checklist for each project implemented.

ADF RESPONSE: We concur.

Discussion: The ADF/Ghana team has recently developed tools to track and assess
financial and project activity performance. In October 2008, ADF will work with the new
partner organization to finalize the monitoring and evaluation system and train the staff in
its use. Routine portfolio reviews will be a central element of the system.

RECOMMENDATION NO. 11: We recommend that the African Development Foundation
issue clarifying guidance to improve coordination and cooperation among the regional


                                                                                         30
                                                                                APPENDIX II


office, the country representative office and the partner organization in Ghana and define
clear lines of responsibility to avoid duplication of efforts and improve program
implementation.

ADF RESPONSE: We concur.

Discussion: ADF completed a major restructuring of the field team in Ghana. First, the
regional office was abolished. In its place is a small staff reporting directly to the
Washington audit office and having responsibility to provide auditing and internal control
support services to all ADF programs. ADF will award a stand-alone cooperative
agreement to an accounting firm to provide financial implementation and management
support to grantees. This cooperative agreement will be managed by the Regional
Program Director in Washington. Second, the position of country representative was
eliminated and the staff was reduced to five persons, three of whom are professional staff.
This staff reports to the Regional Program Director, who has assumed the function of the
country representative. Third, ADF ended its relationship with the partner organization
discussed in this report and will enter into a relationship with a new partner by October 1,
2008.

Under the new structure, two (as opposed to three) entities are involved in the
management of the Ghana program; and it is clear that leadership of the entire operation
is vested in the Regional Program Director, who is supported by a full-time Washington-
based portfolio analyst dedicated to the Ghana program. The field staff is clearly a part of
ADF and the cooperative agreement partners are clearly independent organizations.
Once the new partners are on board, ADF will issues guidelines that delineate the roles of
the ADF field staff and the partner organizations.


RECOMMENDATION NO. 12: We recommend that the African Development Foundation
revise its performance indicators to reflect grantee outputs to adequately measure
progress toward achieving objectives.

ADF RESPONSE: We concur in part.

Discussion: We agree that each project must have output indicators that adequately
measure progress toward achieving objectives. However, we cannot revise output
indicators because none are prescribed. Rather, ADF has issued the guidelines to assist
design teams in formulating accurate and measurable indicators. We believe the
appropriate action is to instruct the ADF field staff and partner organization in how to use
the guidelines.

It is difficult to standardize indicators at the output level because they are project specific
and must be based on an analysis of the particular objectives, assumptions, and
circumstances associated with the project. For this reason, ADF has opted to provide
guidelines on establishing output indicators. Although the guidelines include sample
output indicators for the categories of ADF projects, they emphasize diligent project
analysis as the basis for selecting indicators. Once the new Ghana program partner is in
place, ADF/Washington will provide training to the partner’s staff, which will address the
problems identified in the report. In addition, ADF will take measures at the project review
level to ensure indicators comply with the guidelines.



                                                                                            31
                                                                                APPENDIX II


RECOMMENDATION NO. 13: We recommend that the African Development Foundation
define and delineate the responsibilities of its partner organization and its country
representative office in Ghana, to include the verification and timeliness of grantees’
progress reports to obtain reasonable assurance that the information is accurate and
complete.

ADF RESPONSE: We concur.

Discussion: As stated above, once the new partner organization is in place, ADF will
issue guidance to delineate the responsibilities of the partner organization and the ADF
field staff. Verification and timeliness of grantees’ reports will be covered in this guidance.
The partner organization will have the responsibility for assuring that grantee reports are
accurate, complete, and submitted in a timely manner. ADF has revised Manual Section
631 and the partner cooperative agreements to highlight this role for the partner
organizations. The ADF staff will conduct oversight and support the Regional Program
Director in performing inherently governmental functions such as representing ADF,
remediation, and explaining ADF’s policy and procedures and Federal laws and
regulations.

RECOMMENDATION NO. 14: We recommend that the African Development Foundation
determine the allowability of $516,492 disbursed to grantees and recover the amounts
determined to be unallowable.

ADF RESPONSE: We concur.

Discussion: ADF will convene a termination committee meeting for the projects. The
committee will determine the allowability of costs and the process for recovering
unallowable expenses.

RECOMMENDATION NO. 15: We recommend that the African Development Foundation
develop procedures to minimize the risks of misuse of funds and verify that assets are
procured and used in compliance with African Development Foundation policies.

ADF RESPONSE: We concur.

Discussion: ADF is developing procedures and tools to monitor the financial performance
of grantees and verify that assets are procured and used in accordance with the
Foundation’s policies. Partner organizations will receive training on these procedures and
tools.

RECOMMENDATION NO. 16: We recommend that the African Development Foundation
prepare an action plan for providing grantees with financial management training with
specific implementation dates and assign specific responsibility to the partner
organization to ensure that grantees adopt sound financial management practices.

ADF RESPONSE: We concur.

Discussion: ADF is in the process of awarding a cooperative agreement to an
accounting/financial management firm to provide financial management training and
support to grantees in Ghana. The recipient of this cooperative agreement will monitor
financial performance and develop specific action plans for each grantee to ensure they


                                                                                            32
                                                                              APPENDIX II 



develop sound financial management practices.


RECOMMENDATION NO. 17: We recommend that the African Development Foundation
establish relevant implementing procedures to (a) ensure that the grantees make their
required contributions to the community reinvestment fund; (b) establish a policy on the
use of the community development trust fund; (c) refund the amount of $69,649 of
unauthorized contributions; and, (d) take the necessary steps to transfer grantees’
contributions totaling $364,581 from its partner organization to ADF/Ghana.

ADF RESPONSE: We concur in part.

Discussion: ADF is developing a policy on community reinvestment grants to improve the
performance of the mechanism, which may result in major changes to the implementation
strategy. Since grantees’ commitments to the community reinvestment fund are voluntary
pledges for a third party beneficiary, enforcement options open to ADF are limited. One
option is to suspend funding to the grantee or terminate the grant agreement. However,
in too many cases this option conflicts with the development objective of the project and
does not insure that the grantee will make the contribution. Another option is to assess
the financial capabilities of the grantee to honor its pledges and adjust the pledges
accordingly. ADF has found that this option leads to improvements in contributions in
some cases. Since these options have proven to be ineffective or of limited effectiveness,
ADF is reexamining the structure of the community reinvestment mechanism to improve
its performance.

In Ghana, ADF is implementing an action plan that involves the following major actions:
(a) transferring community reinvestment funds from the former partner to a custodian who
will hold them in trust until a formal trust is establish according to Ghanaian law (the
community reinvestment proceeds are community funds and thus cannot be held in trust
by ADF); and, (b) establishing a formal trust with policies and procedures that is managed
by Ghanaians. Once the trust is operational, it will have the legal and moral authority to
enforce pledges.

We do not agree that the former partner organization should be required to reimburse the
$69,694 distributed from the community reinvestment proceeds. The decision to make
the distribution was not made by the former partner organization. Also, notwithstanding
the informality of the distributions, the funds were donated to legitimate community
development activities in accordance with the original intent of the public trust.

RECOMMENDATION NO. 18: We recommend that the African Development Foundation

develop a clear action plan that addresses sustaining project activities after the African

Development Foundation’s support has ended. 

ADF RESPONSE: We concur. 


Discussion: ADF will issue guidelines for the development of a sustainability plan for
each active project designed to have an economic impact. The guidelines will start with
the selection of the project and extend to post-implementation.               For economic
development projects, the guidance for the preparation of the plans will include guidelines
on assessing the viability of proposed projects, assessment of recurrent costs during the
design phase, and monitoring of sustainability during implementation. In addition, ADF will
require local audit firms to provide an opinion on a project’s sustainability as an on-going


                                                                                         33
                                                                              APPENDIX II


concern as part of their audit report. In accordance with ADF Manual Section 633, six
months prior to the expiration of a project ADF will conduct a pre-closeout site visit to
assess the sustainability of the project and recommend remediation actions, as is
appropriate. ADF has already commenced the pre-closeout and audit follow-up actions
for ten expiring projects in Ghana.

The capacity building and pilot projects that are not intended to have an economic impact
will be treated differently. Based on the pre-closeout site visit, ADF will determine if the
project is viable and warrants additional funding. Those projects determined viable will
include a sustainable plan in their design.




                                                                                         34
                                                                                                                                                 APPENDIX II

                                                                    IG GHANA AUDIT
                                                            AUDIT REPORT NO. 7-ADF-08-00X-P
                                                            CORRECTIVE ACTIONS SCHEDULE

No.                   OIG Recommendation                        ADF Response                            Corrective Action(s)                           Corrective
                                                                                                                                                         Action
                                                                                                                                                       Completion
                                                                                                                                                           Date
1       ADF determine the allowability of $202,100 in           Concur.              ADF is reviewing the questioned costs with the former            December
        ineligible questioned costs and $127,836 in                                  partner and will begin collection action by September 30,        31, 2008
        unsupported questioned costs and recover                                     2008.
        from the partner organization the amounts
        determined to be unallowable.
2       ADF establish a plan to correct the internal            Concur. *            (a) Award a program cooperative agreement to a new               (a) October
        control and compliance deficiencies discussed                                organization to serve as ADF’s partner.                          1, 2008
        in the report. This will include at a minimum the
        use of monthly timesheets, completion and                                    (b) Orient the new partner organization in internal control
        review of vehicle log books, approval of bank                                procedures and financial management policies and                 (b) October
        reconciliations, documentation of board of                                   procedures and issue final master plan for ensuring              15, 2008
        directors’ meetings and liquidation of travel                                compliance with internal control requirements.
        advances.
3       ADF issue a request for proposals (a) to                Concur.*             (a) An audit firm on the USAID Office of Inspector
        conduct a financial audit of its Ghana country                               General’s (OIG) list of local audit firms completed the          a) September
        representative office for the calendar year 2007                             audit in August 2008. ADF must determine if the country          30, 2008
        to assess whether ADF funds were used in                                     representative used the Foundation’s funds properly.
        compliance with ADF policies, and (b) to select
        a partner based on competitive process to                                    (b) ADF has completed a competitive selection process
        comply with U.S. regulations.                                                and will award a cooperative agreement to a firm to
                                                                                     serve as a partner for financial management.                     (b) October
                                                                                                                                                      1, 2008
4       ADF take appropriate measures to sell or                Concur.              Sell the unused equipment to another United States               December
        replace unused assets.                                                       Government agency or to the public through a U.S.                31, 2008
                                                                                     Embassy auction.




* ADF has already undertaken strong actions to improve internal control, financial management, monitoring and evaluation, review of partner audits, and     35
coordination and cooperation within the Ghana field team.
                                                                                                                                                 APPENDIX II

                                                                    IG GHANA AUDIT
                                                            AUDIT REPORT NO. 7-ADF-08-00X-P
                                                            CORRECTIVE ACTIONS SCHEDULE

No.                   OIG Recommendation                        ADF Response                            Corrective Action(s)                           Corrective
                                                                                                                                                         Action
                                                                                                                                                       Completion
                                                                                                                                                           Date
5       ADF determine the allowability of questioned            Concur.              Reconcile the difference between the $129,000                    September
        indirect costs totaling $182,866 and recover the                             reimbursement for indirect costs made by the former              30, 2008
        Amounts determined to be unallowable from                                    partner and the $182,866 of questioned costs identified
        the partner organization.                                                    in the report and collect what is due.
6       ADF amend its award documents to eliminate              Concur in part.      Beginning the first quarter of Fiscal Year 2009, ADF will        a) December
        the use of indirect cost rates with ADF partner                              undertake the following actions:                                 31, 2008
        organizations and contact local accounting                                   (a) require each partner organization with an indirect
        firms to conduct indirect cost rate audits for the                                cost rate provision to engage a local accounting firm
        other eight countries where indirect cost rates                                   on the OIG’s list of eligible firm to conduct an audit of   (b)
        were used.                                                                        the partner’s indirect cost rate according to the U.S.      September
                                                                                          Generally Accepted Government Auditing                      30, 2008
                                                                                          Standards(GAGAS);
                                                                                     (b) eliminate the indirect cost provisions in those
                                                                                     cooperative agreements that expire after September 30,
                                                                                     2008.
7       ADF issue a bill for collection to its partner          Concur.              The collection will be included in the ongoing closeout of       December
        organization to recover $13,959 in audit fees                                the partner’s cooperative agreement.                             30, 2008
        charged to the award.
8       ADF require its internal auditor to review the          Concur.*             Amend the internal auditor’s position description and            October 1,
        audit reports on its partner organizations before                            ADF audit guidelines to include review of audit reports on       2008
        the audit firms finalize their reports.                                      partner organizations before they are finalized; and
                                                                                     Incorporate this change into the partners’ cooperative
                                                                                     agreements.




* ADF has already undertaken strong actions to improve internal control, financial management, monitoring and evaluation, review of partner audits, and     36
coordination and cooperation within the Ghana field team.
                                                                                                                                                 APPENDIX II

                                                                    IG GHANA AUDIT
                                                            AUDIT REPORT NO. 7-ADF-08-00X-P
                                                            CORRECTIVE ACTIONS SCHEDULE




No.                   OIG Recommendation                        ADF Response                            Corrective Action(s)                           Corrective
                                                                                                                                                         Action
                                                                                                                                                       Completion
                                                                                                                                                          Date
9       ADF comply with its grant agreement’s                   Do not concur.       Amend the standard provisions to the partners’                   October 1,
        standard provisions and issue specific                                       cooperative agreement to state the ADF internal auditor          2008
        guidance requiring its partner organization to                               will review the partners’ audits and ensure that only firms
        submit its audit reports for review to the USAID                             on the OIG’s list of eligible audit firms conduct the audits
        Office of Inspector General and verify that the                              and the audits will be performed in accordance with U.S.
        accounting firm is on the list of eligible firms.                            Generally Accepted Government Auditing Standards
                                                                                     (GAGAS).
10      ADF/Ghana establish a monitoring and                    Concur.*             Based on recently developed project tracking and                 November
        evaluation system. This will include at a                                    assessment tools, The ADF/Ghana team, work with the              30, 2008
        minimum a control information checklist for                                  new partners, will finalize the monitoring and evaluation
        each project implemented.                                                    system and train staff in its use.
11      ADF issue clarifying guidance to improve                Concur.*             Issue guidelines that delineate the roles of the ADF field       October 15,
        coordination and cooperation between the                                     staff and partner organizations.                                 2008
        regional office, the country representative office
        and the partner organization in Ghana and                                    [The new structure includes the following components:
        define clear lines of responsibility to avoid                                (a) partner for program management; and (b) partner for
        duplication of efforts and improve program                                   financial management. These organizations (and a
        implementation.                                                              small field staff reporting directly to the Regional
                                                                                     Program Director) are managed by the Regional
                                                                                     Program Director. There is a region-wide audit and
                                                                                     financial management office located in Ghana reporting
                                                                                     to the Washington audit office.]
12      ADF revise its performance indicators to reflect        Concur in part       a)Instruct the ADF field staff and partner organizations in      a) October
        grantee outputs to adequately measure                                        ADF’s guidelines for selecting output indicators that            15, 2008
        progress towards achieving objectives.                                       measure progress towards achieving objectives.
                                                                                     b)Revise guidelines for project review to ensure output          (b)
                                                                                     targets are adequate to measure progress.                        September
                                                                                                                                                      15, 2008




* ADF has already undertaken strong actions to improve internal control, financial management, monitoring and evaluation, review of partner audits, and     37
coordination and cooperation within the Ghana field team.
                                                                                                                                                 APPENDIX II

                                                                    IG GHANA AUDIT
                                                            AUDIT REPORT NO. 7-ADF-08-00X-P
                                                            CORRECTIVE ACTIONS SCHEDULE

No.                   OIG Recommendation                        ADF Response                            Corrective Action(s)                           Corrective
                                                                                                                                                         Action
                                                                                                                                                       Completion
                                                                                                                                                          Date
13      ADF define and delineate the responsibilities of        Concur. *            (a) Issue guidance that delineates the responsibilities of       October 15,
        its partner organization and its country                                     the Ghana partner organizations and ADF field staff state        2008
        representative office in Ghana, to include the                               the program partner organization is responsible for
        verification and timeliness of grantees’                                     assuring accuracy, completeness, and timeliness of
        progress reports to obtain reasonable                                        grantee reports.
        assurance that the information is accurate and                               (b) Update standard language in cooperative
        complete.                                                                    agreements and MS 631 to provide for reasonable                  September
                                                                                     assurance for the quality and completeness of progress           15, 2008
                                                                                     reports.
14      ADF determine the allowability of $516,492              Concur.              Convene a termination committee meeting to determine             December
        disbursed to grantees and recover the amounts                                allowable costs and initiate debt recovery process in            31, 2008
        determined to be unallowable.                                                September 2008, and recover all unallowable costs.


15      Develop procedures to minimize the risks of             Concur.*             (a) Develop procedures and tools for financial monitoring        September
        misuse of funds and verify that assets are                                   of grantees and verify assets are procured and used              30, 2008
        procured and used in compliance with African                                 according to ADF’s policies.
        Development Foundation policies.
                                                                                     (b) Train partner organizations on the procedures and            (b) October
                                                                                     tools.                                                           31, 2008
16      ADF prepare an action plan for providing                Concur.*             The accounting/financial management partner in Ghana             November
        grantees with financial                                                      will develop specific action plans for each grantee to           30, 2008
        management training with specific                                            ensure they follow sound financial management
        implementation dates and assign specific                                     practices
        responsibility to the partner organization to
        ensure that grantees adopt sound financial
        management practices.




* ADF has already undertaken strong actions to improve internal control, financial management, monitoring and evaluation, review of partner audits, and     38
coordination and cooperation within the Ghana field team.
                                                                                                                                                   APPENDIX II

                                                                    IG GHANA AUDIT
                                                            AUDIT REPORT NO. 7-ADF-08-00X-P
                                                            CORRECTIVE ACTIONS SCHEDULE

No.                   OIG Recommendation                        ADF Response                            Corrective Action(s)                           Corrective
                                                                                                                                                          Action
                                                                                                                                                       Completion
                                                                                                                                                           Date
17      ADF establish relevant implementing                     Concur in part.      (a) ADF is establishing an Agency-wide policy on the use         (a)
        procedures to (a) ensure that the grantees                                   of community investment funds.                                   December
        make their required contributions to the                                                                                                      31, 2008
        community reinvestment fund, (b) establish a                                 (b) ADF does not agree to collect the $69,694 in
        policy on the use of the community                                           contributions from the former partner, since an ADF
        development trust fund, (c) refund the amount                                official initiated and authorized distribution of the funds      (b) October
        of $69,694 of unauthorized contributions and                                 and the distributions were for purposes originally               31, 2008
        (d) take the necessary steps to transfer                                     intended by the community reinvestment mechanism.
        grantees’ contributions totaling $364,581 from
        its partner organization to ADF/Ghana.                                       (c) ADF will undertake the following actions in Ghana: (i)
                                                                                     transfer community reinvestment funds from the former
                                                                                     partner to a custodian until the trust is established
                                                                                     according to Ghanaian law; (ii) establish a formal trust
                                                                                     that has the legal and moral authority to enforce pledges
18      ADF develop a clear action plan that addresses          Concur.              Issue guidelines for the formulation of a sustainability         November
        sustaining project activities after the African                              plan for each active project designed to have an                 30, 2008
        Development Foundation’s support has ended                                   economic impact.




* ADF has already undertaken strong actions to improve internal control, financial management, monitoring and evaluation, review of partner audits, and     39
coordination and cooperation within the Ghana field team.
                                                                             APPENDIX III


ADF/GHANA QUESTIONED COSTS


                                                                                               Total
                                                               Ineligible    Unsupported     Questioned
                                        Item                     Costs          Costs          Costs
 Partner           Salaries paid to a employee without proof
 Organization      of work                                     $                  $11,436       $11,436
                   Direct salaries in excess of budgeted
                   allocation                                                      31,015        31,015
                   Unliquidated travel advances                                    61,937        61,937
                   Unliquidated advance for orientation
                   workshop                                                         7,987         7,987
                   Per diem and room & board duplicated for
                   ADF workshop                                      1,206                        1,206
                   Tax refunds wrongly reimbursed to
                   employees                                           311                          311
                   Unreasonable end of year bonuses                 36,908                       36,908
                   Unused accounting software                        4,343                        4,343
                   Biofrukta feasibility study (not ADF
                   related)                                           365                          365
                   Housing allowance (not allowable OMB A
                   122)                                             15,434                       15,434
                   Employee severance pay                                           4,819         4,819
                   Lack of invoice for staff retreat                                3,160         3,160
                   Refund of unused medical and
                   educational benefits                                             1,422         1,422
                   Provident fund improperly accounted for          12,014                       12,014
                   Provident fund contribution wrongly
                   charged                                            627                           627
                   Board meetings related expenses                                  6,060         6,060
                   Unused website development                         634                           634
                   Procurement of used computers for prices
                   of new ones                                       2,653                        2,653

 Country
 Representative    Inoperable satellite dishes                     125,628                      125,628

                   Unjustified weekend travels                       1,257                        1,257
                   Interest expense on rental advance                  720                          720
                   Subtotal                                        202,100        127,836       329,936
 Finding page 6    Overcharged indirect costs                      182,866                      182,866
                   Audit costs for audits not meeting               13,959                       13,959
 Finding page 8    standards
 Finding page 14    Indications of fraud by grantees               516,492                      516,492
 Finding page 18   Unauthorized trust fund payments                                69,694        69,694
 Total                                                          $915,417         $197,530    $1,112,947

The following presents an explanation of the questioned costs.




                                                                                        40
                                                                           APPENDIX III 



Partner Organization

•	 One employee was paid a salary of $11,436 for the 3-month period January to March
   2008, even though there was no evidence that the employee was working for ADF
   during this period. He was also paid a travel advance of $400 to conduct a field visit
   in October 2007 and the advance was never liquidated.

•	 Under the last cooperative agreement (No. 1690) with the partner organization, the
   budgeted amount for direct salaries was $50,843 for calendar year 2007. However,
   the partner organization expensed $82,420 which exceeded the budgeted amount by
   62 percent. The grant agreement stated that the partner must obtain written approval
   from ADF for expenditures that exceed any line item by more than 15 percent. Yet,
   such written approval was not requested or obtained. Under cooperative agreement
   No. 1541 ending in April 2005, the amount of salaries exceeding budgeted
   expenditures amounted to $7,065. Hence, for both of these agreements, $31,015 of
   salary expenditures is questioned.

•	 During the period April 2004 to March 2008, 152 of 384 travel advances representing
   $61,937 were not liquidated by actual travel reports and the majority of the actual
   travel reports were incomplete and not adequately supported. The partner
   organization recorded these advances as expenses and did not have procedures in
   place to compare the actual travel with the travel advance. Also a driver claimed fuel
   and per diem to attend a colleague’s funeral outside of Accra, Ghana.

•	 In March 2006, ADF organized a workshop to provide orientation to its new staff. An
   advance of $7,987 was provided to an ADF staff member but was never liquidated.
   Also, even though room and board was paid for by ADF, the staff member claimed
   per diem totaling $1,206.

•	 The partner organization’s seven staff members charged ADF $311 for
   reimbursement of excess income taxes. The Government of Ghana reduced its
   income tax rates and the partner organization reimbursed its employees for the
   additional taxes deducted at source for the period January to March 2004.

•	 The partner’s staff received both a 13th month bonus and an end of the year bonus in
   2005 and 2006 totaling $36,908. However, the partner’s policy was not clear or
   consistent regarding bonuses. Comparatively, the USAID mission in Accra, Ghana,
   provides only a 1-month bonus each year while ADF/Ghana’s staff received two
   month bonuses each year.

•	 The partner organization had roughly 30 accounting transactions per month
   supporting the payment of salaries, utilities, communications and office supplies. In
   spite of this low level of transactions, and without using a proper bidding system, the
   partner organization procured an accounting system (Pastel) at a cost of $4,343. The
   software was used for a short period of time and then no longer used. We were told
   that the software was never reinstalled after a computer crashed, which did not seem
   reasonable in view of the amount spent on the software.

•	 The partner organization wrongly charged ADF $365 for a feasibility study that was
   not related to the ADF program. This cost was related to a consultancy that the



                                                                                       41
                                                                            APPENDIX III


   partner organization was conducting for another organization.

•	 Housing allowances for the partner organization’s staff totaling $15,434 were
   charged to ADF even though these costs were unallowable according to OMB
   Circular A-122.

•	 Expenses of $4,819 for an employee’s severance pay and $3,160 for a staff
   workshop were not supported by adequate documentation.

•	 The ADF partner organization reimbursed its staff $1,422 for unclaimed educational
   and medical benefits which were not included in its administrative policy.

•	 ADF contributed 5 percent to a provident fund for the partner organization’s
   personnel. Although the provident fund contributions were debited from ADF’s bank
   account each month, the funds were not deposited in a trust fund on a regular basis
   and were not properly accounted for. Every year, the partner’s staff members
   received a share of the provident funds including ADF’s contribution. As of
   November 2007, when the partner organization finally established the provident fund
   with a financial institution, there was only a negligible amount available for transfer.
   The partner’s provident fund policy did not require that an employee be vested and
   allowed for the withdrawal of 80 percent of the total contributions after 3 years of
   service. However, all contributions were withdrawn yearly which was contrary to the
   partner’s policy and contrary to the essence of what a provident fund stands for in
   that it is supposed to be used upon termination of employment. Also, there were no
   records of individual employee contributions and we could not reconcile ADF’s
   contributions with the funds deposited, the interest earned, and the amounts
   withdrawn by the partner’s employees. Thus, ADF’s share of provident fund
   contributions, representing 5 percent of basic salaries, and totaling $12,014 is
   questioned. Moreover, the partner charged ADF $627 as a contribution for staff that
   had left the organization instead of withdrawing funds from the provident fund
   account.

•	 The partner organization charged ADF $6,060 for transportation costs and per diem
   allowances of board members for attending board meetings. However, the partner
   organization had no record of these meetings having taken place to support these
   costs.

•	 In February 2007, the partner organization charged ADF $634 for the development of
   its website. However, as of April 2008, the partner organization did not have a
   website resulting in a waste of ADF funds.

•	 E. K. Agyei purchased two used Dell computers in February 2007 for $2,653, which
   is the price of buying new computers. The audit team noted that the computers were
   old and very used. The processor was Intel Pentium III which has been out of the
   market for almost 5 years. Also, one computer was not working and had broken
   almost 1 year ago. At least 13 field visits to the grantee by the partner organization’s
   staff members had been conducted since January 2007 yet the partner organization
   had not reported this misuse of funds or taken any action to assist the grantee in
   getting the money back or getting replacement computers.




                                                                                        42
                                                                            APPENDIX III 




Country Representative Office

The audit team also found the following instances of noncompliance within the country
representative office.

•	 ADF/Ghana purchased two satellite dishes for $125,628 in 2006. However, the
   satellites have not been installed correctly and as of May 2008 have not been used
   for an internet connection. Instead, ADF/Ghana used an internet service provider.

•	 While reviewing travel records, the audit team found that the country representative
   office conducted a field visit during two weekends, charging ADF $1,257 of travel
   allowances for himself and a driver, as well as lodging costs, at a rate higher than the
   per diem allowed, without describing in the travel reports the specific location and the
   purpose of the visits. Also, even though the area visited was located 250 kilometers
   from Accra, the mileage recorded for these two visits was 1,361 kilometers, a 36
   percent increase.

•	 The country representative office charged ADF $720 as interest expense because
   the 6-month rental advance was paid 1 month late. Interest expense is unallowable
   according to OMB Circular A-122 and no supporting documentation for the
   computation of interest was provided.




                                                                                        43
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
